  Report No. D-2008-027          November 21, 2007




Air Force Use of Global War on Terrorism Supplemental
    Funding Provided for Procurement and Research,
          Development, Test, and Evaluation
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
AFAA                  Air Force Audit Agency
ASAF(FM&C)            Office of the Assistant Secretary of the Air Force (Financial
                         Management and Comptroller)
GAO                   Government Accountability Office
GWOT                  Global War on Terrorism
OUSD(C)               Office of the Under Secretary of Defense (Comptroller)
                                INSPECTOR GENERAL

                               DEPARTMENT OF DEFENSE

                                  400 ARMY NAVY DRIVE

                             ARLINGTON, VIRGINIA 22202-4704




                                                                        November 21,2007


MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
              (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT:	 Report on Air Force Use of Global War on Terrorism Supplemental Funding
          Provided for Procurement and Research, Development, Test, and Evaluation
          (RepOlt No. D-2008-027)


         We are providing this final report for review and comment. This repOlt is the first
in a series ofrepOlts on DoD's use of Global War on Terrorism supplemental funding.
Tllis report addresses the Air Force's financial controls for issuing, identifying, and using
Global War on Terrorism supplemental funding. In preparing tllis report, we considered
comments on a draft of this repOlt from the Office of the Under Secretary of Defense
(Comptroller) and the Office of the Assistant Secretary of the Air Force (Financial
Management and Comptroller).

        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
As a result of management comments, we revised Recommendation 1. to clarify the intent
of the recommendation. In addition, management's comments to Recommendation 2.
were only pmtially responsive to the recommendation. Therefore, we request that the
Assistant Secretary of the Air Force (Financial Management and Comptroller) provide
comments on Recommendations 1. and 2. by December 21,2007.

        If possible, please send management comments in electronic fOlmat (Adobe
Acrobat file only) to AUDACM@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified conmlents
electronically, they must be sent over the SECRET Intemet Protocol Router Network
(SIPRNET).

       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Lisa M. Such at (703) 604-9284 (DSN 664-9284) or Mr. Jack D. Snider at (703)
604-9087 (DSN 664-9087). See Appendix G for the report distribution. The team
members are listed inside the back cover.

                 By direction of the Deputy Inspector General for Auditing:




                                            Richard B. Jolliffe

                                      Assistant Inspector General

                                  Acquisition and Contract Management

               Department of Defense Office of Inspector General
Report No. D-2008-027                                                 November 21, 2007
   (Project No. D2006-D000AE-0241.000)

         Air Force Use of Global War on Terrorism Supplemental

            Funding Provided for Procurement and Research,

                    Development, Test, and Evaluation 


                                 Executive Summary 


Who Should Read This Report and Why? DoD and Air Force comptroller and budget
personnel who are responsible for the accounting and reporting for Global War on
Terrorism (GWOT) supplemental funding should read this report. This report discusses
management and accounting issues associated with the information reported to Congress
concerning the Air Force’s use of GWOT funding.

Background. This report is the first in a series of reports that addresses the adequacy of
DoD financial controls over the use of GWOT supplemental and bridge funding provided
for procurement and research, development, test, and evaluation. An additional report in
this series will cover the cost of war reporting process. The final report will address the
Army, Navy, Marine Corps, Defense-wide agencies, National Guard, and Reserve
Components financial controls over their use of GWOT funds.

From August 2002 through December 2005, Congress provided DoD approximately
$28 billion in supplemental funding for unclassified procurement and research,
development, test, and evaluation activities for a myriad of efforts throughout the DoD
Components in support of GWOT. The Air Force received approximately $1.5 billion of
the $28 billion; of that, $1.42 billion was for procurement and $78 million was for
research, development, test, and evaluation activities.

Results. We reviewed 28 Air Force sample dollar points to determine whether the
sample points were spent for the efforts stipulated by Congress. Of the 28 sample dollar
points, we could not determine whether 16 were spent on the efforts stipulated by
Congress. Additionally, 1 of the 28 was classified, and 11 were spent for the efforts
stipulated by Congress. We also evaluated those 28 Air Force sample dollar points to
determine whether the sample points were spent in support of GWOT. Of the 28 sample
dollar points, we could not determine whether 17 were spent in support of GWOT.
Additionally, 1 of the 28 was classified and 10 were spent in support of GWOT.

As a result of our review of the 28 Air Force sample dollar points, we concluded that the
Air Force needs to improve its management and financial controls over the use of GWOT
supplemental and bridge funding provided for procurement and research, development,
test, and evaluation. Specifically, because the Air Force comptrollers and budget officers
did not always include an emergency operations code for supplemental and bridge funds
in their accounting classifications, the Air Force financial community did not have a
means to ensure that funds placed on contracts were used for the efforts stipulated by
Congress. As a result, the Air Force did not have accounting controls to accurately report
to Congress its progress in obligating those funds. The Assistant Secretary of the
Air Force (Financial Management and Comptroller) should enforce procedures that
require Air Force comptrollers and budget officers to assign emergency operations codes
in accounting classifications for GWOT obligations in accordance with Air Force
Instruction 65-601, “Financial Management,” March 3, 2005. He should also establish
procedures to ensure funds can be tracked through the General Accounting and Finance
System. (See the Finding section of the report for the detailed recommendations.)

After discussion with the audit team, the Assistant Secretary of the Air Force (Financial
Management and Comptroller) issued a memorandum, “Global War on Terrorism
(GWOT) Cost of War Reporting,” April 3, 2007. The memorandum requires each major
command that receives supplemental funding to report monthly on GWOT obligations
and expenditures at the line-item level of detail. The memorandum also reiterates the
requirement for Air Force comptrollers and budget officers to properly code GWOT
funding documentation with emergency operations codes in accounting classifications.

We identified a material internal control weakness regarding inconsistent emergency
operations coding of GWOT supplemental and bridge funds. Specifically, this report
addresses a systemic financial internal control weakness with regard to the Air Force’s
process for tracking, controlling, and reporting on the use of supplemental funds provided
for GWOT.

Management Comments and Audit Response. We received comments from the
Principal Deputy Assistant Secretary of the Air Force (Financial Management),
responding for the Assistant Secretary of the Air Force (Financial Management and
Comptroller); and the Acting Deputy Chief Financial Officer, responding for the Under
Secretary of Defense (Comptroller).

The Principal Deputy Assistant Secretary of the Air Force (Financial Management) did
not specifically concur with the recommendation to enforce procedures for requiring Air
Force comptroller and budget officers to assign emergency operations codes in the
accounting classification of commitment and obligation documents. He stated that the
April 3, 2007, memorandum met the intent of the recommendation and that 99 percent of
the FY 2007 GWOT funds were coded properly. However, that memorandum has not
resulted in Air Force comptrollers and budget officers properly coding GWOT
commitment and obligation documents. From the FY 2007 GWOT supplemental, we
reviewed eight transactions that occurred after the April 3, 2007, memorandum was
issued. We found, contrary to management comments, that four of those transactions
were not coded as required. As a result, we clarified our recommendation to require the
enforcement of Air Force policy on the use of emergency operations codes in the
accounting classification of commitment and obligation documents.

The Principal Deputy Assistant Secretary also did not specifically concur with the
recommendation to establish procedures requiring Air Force comptroller and budget
officers to separate GWOT appropriations by conference report line item. His comments
were partially responsive to the recommendation but did not address an effective means
of ensuring that conference report line items are kept separate in budget authorization
documents.

Although not required to respond, the Acting Deputy Chief Financial Officer also
provided comments on the finding in this report. In response to those comments, we
revised the report to include additional requirements stipulated by an update of the DoD
Financial Management Regulation concerning emergency operations coding and alternate

                                            ii
methodologies for accounting for costs. We also modified the report to include additional
explanation regarding combining of conference report line items in budget authorization
documents. (See the Finding section of the report for a discussion of the management
comments and the Management Comments section of the report for the complete text of
the comments.)

We request that the Assistant Secretary of the Air Force (Financial Management and
Comptroller) provide comments on the final report by December 21, 2007.




                                           iii
Table of Contents 


Executive Summary                                                           i


Background                                                                  1


Objectives                                                                  2


Review of Internal Controls                                                 2


Air Force Results                                                           3


Finding
     Differentiating Appropriated Funds                                     4


Appendixes
     A. Scope and Methodology                                              10 

     B. Prior Coverage                                                     14 

     C. Glossary                                                           15 

     D. Apportionment Process for Supplemental and Bridge Funds            18 

     E. Assistant Secretary of the Air Force (Financial Management and 

          Comptroller) Memorandum of Actions Taken                         21 

     F. Statistical Sampling Methodology                                   22 

     G. Report Distribution                                                24 


Management Comments
     Under Secretary of Defense (Comptroller)                              27 

     Department of the Air Force                                           29 

Background 

    This report is the first in a series of reports on the adequacy of DoD financial
    controls over the use of Global War on Terrorism (GWOT) supplemental funding
    provided for procurement and research, development, test, and evaluation. This
    report addresses the Air Force’s financial controls for issuing, identifying, and
    using GWOT supplemental funding. An additional report in this series will cover
    the cost of war reporting process. The final report will address the Army, Navy,
    Marine Corps, Defense-wide agencies, National Guard, and Reserve Components
    financial controls over their use of GWOT funds.

    Global War on Terrorism. Following the terrorist attacks of
    September 11, 2001, the United States initiated military operations to combat
    terrorism in the United States, Iraq, and Afghanistan. Military operations related
    to Iraq and Afghanistan are known as Operation Iraqi Freedom and Operation
    Enduring Freedom, respectively. Efforts to defend the United States from further
    terrorist attacks are referred to as Operation Noble Eagle. These operations are
    collectively referred to as GWOT. The Office of the Under Secretary of Defense
    (Comptroller) (OUSD[C]) considers GWOT a contingency operation and requests
    funding from Congress for GWOT through emergency supplemental and bridge
    appropriations.

    Funding Provided for the Global War on Terrorism. In response to DoD
    requests for GWOT funding to cover the extra costs associated with conducting
    operations in support of GWOT, Congress enacts supplemental appropriations.
    Supplemental appropriations are additional budget authority given to DoD beyond
    original annual estimates for DoD programs or activities that are too urgent to be
    postponed until the next regular appropriation. Bridge funds are funds contained
    within an annual appropriation that front war-related costs for the coming fiscal
    year until supplemental appropriations are made available.

    From August 2002 through December 2005, Congress provided DoD
    approximately $28 billion in supplemental funding for unclassified procurement
    and research, development, test, and evaluation activities. The Air Force received
    approximately $1.5 billion of the $28 billion; of that, $1.42 billion was for
    procurement and $78 million was for research, development, test, and evaluation
    activities.

    Apportionment Process. OUSD(C) issues an apportionment request for
    supplemental funding to the Office of Management and Budget. The Office of
    Management and Budget reviews and approves the request and forwards it to the
    OUSD(C), Investment Directorate for disbursement of the funds to the DoD
    Components. Within the Air Force, the Office of the Assistant Secretary of the
    Air Force (Acquisition) receives those funds and subsequently releases them to
    the Office of the Assistant Secretary of the Air Force (Financial Management and
    Comptroller) (ASAF[FM&C]). The ASAF(FM&C) then allocates the
    supplemental funds to the major commands, which allot those funds to the
    appropriate program offices. The budget analysts within each program office

                                        1

     enter the budget information into their accounting systems to allow the funds to be
     committed and obligated. A flowchart of the entire process can be found in
     Appendix D of this report.

     Air Force Accounting System. The Air Force uses the General Accounting and
     Finance System as its official accounting system. The Air Force uses a database
     called the Commander’s Resource Integration System to query the General
     Accounting and Finance System and to provide users with analytical tools, such as
     reports.

     Defense Finance and Accounting Service Indianapolis and Cost of War
     Reporting. Defense Finance and Accounting Service Indianapolis is responsible
     for preparing budget execution reports as required by the DoD financial
     management regulations. One of the reports compiled by the Defense Finance
     and Accounting Service is a monthly status report known as the “Supplemental
     and Cost of War Execution Report.” This report includes information on amounts
     DoD Components obligated for contingency operations and is submitted to
     Congress.

Objectives
     The primary audit objective was to evaluate the adequacy of Air Force financial
     controls over the use of Global War on Terrorism supplemental funding provided
     for procurement and research, development, test, and evaluation. We also
     determined whether the funds were placed on contracts and used for the purposes
     stipulated by Congress. See Appendix A for a discussion of the scope and
     methodology and Appendix B for a discussion of prior coverage related to the
     audit objectives.

Review of Internal Controls
     We identified a material internal control weakness in the Air Force emergency
     operations coding of supplemental and bridge funds, as defined by DoD
     Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
     January 4, 2006. Although the internal controls outlined in the Air Force
     Instruction 65-601, “Budget Guidance and Procedures,” March 3, 2007, were
     adequate for coding emergency supplemental and bridge funds, the Office of the
     ASAF(FM&C) and reporting offices did not follow them for all of the 28 sample
     dollar points reviewed. Implementing the recommendations in this report will
     improve controls by consistently coding supplemental and bridge funds so that the
     Air Force can accurately report on the cost of the war. We will provide a copy of
     this report to the senior Air Force official responsible for internal controls in the
     Department of the Air Force.




                                          2

Air Force Results 

     We reviewed 28 Air Force sample dollar points to determine whether the sample
     points were spent for the efforts stipulated by Congress. Of the 28 sample dollar
     points, we could not determine whether 16 were spent on the efforts stipulated by
     Congress. Additionally, 1 of the 28 was classified and 11 were spent for the
     efforts stipulated by Congress.

     We also evaluated those 28 Air Force sample dollar points to determine whether
     the sample points were spent in support of GWOT. Of the 28 sample dollar
     points, we could not determine whether 17 were spent in support of GWOT.
     Additionally, 1 of the 28 was classified and 10 were spent in support of GWOT.
     See Appendix A for a discussion of the audit methodology used to determine the
     status of the sample dollar points. See the Finding section for a discussion of the
     inadequacy of Air Force financial controls over GWOT supplemental funding for
     procurement and research, development, test, and evaluation that prevented us
     from determining whether the 17 dollar points were spent in support of GWOT.




                                          3

                   Differentiating Appropriated Funds 

                   The Air Force needs to improve its management and financial controls
                   over the use of GWOT supplemental funding provided for procurement
                   and research, development, test, and evaluation. The controls need
                   improvement because the Air Force comptrollers and budget officers did
                   not always follow procedures for applying emergency operations codes in
                   their financial documentation to differentiate the use of emergency
                   supplemental, bridge, and annual appropriated funds. Because
                   comptrollers and budget officers did not put a separate emergency
                   operations code on supplemental and bridge funds, the Air Force financial
                   community did not have a means to ensure that funds placed on contracts
                   were used for the purposes stipulated in the congressional language
                   authorizing the supplemental funding for GWOT. As a result, the
                   Air Force could not accurately report to Congress its progress in obligating
                   those funds.

Emergency and Special Program Code Guidance
           DoD Financial Management Regulation, Volume 12, “Special Accounts Funds
           and Programs,” Chapter 23, “Contingency Operations,” September 2005,1 and
           Air Force Instruction 65-601, Volume I, “Budget Guidance and Procedures,”
           March 3, 2005,2 provide guidance on fund coding, use of emergency operations
           codes, and reporting monthly on the use of supplemental and bridge funds for
           contingency operations.

           DoD Financial Management Regulation. The DoD Financial Management
           Regulation requires that the Defense Finance and Accounting Service prepare and
           issue a monthly status report on the amounts DoD obligated in support of
           contingency operations. The report, called the “Supplemental and Cost of War
           Execution Report,” consolidates data submitted by the DoD Components about the
           various GWOT operations and appropriations. The Defense Finance and
           Accounting Service provides the monthly cost status report to the OUSD(C), who in
           turn provides the report to Congress.

           The Regulation requires each DoD Component to establish emergency operations
           codes to capture contingency operations costs in the accounting system. In
           addition to emergency operations codes, the September 2005 revision of the DoD
           Financial Management Regulation also states that each DoD Component should
           develop adequate measures for capturing actual costs from the accounting system.
           The Regulation states that when actual costs are not available, the DoD

1
    DoD Financial Management Regulation, Volume 12, Chapter 23, dated September 2005 supersedes the
    February 2001 version. Based on the Explanation of Change section of the September 2005 version, the
    requirements in the above referenced paragraphs were in effect in the February 2001 version as well.
2
    Air Force Instruction 65-601 dated March 3, 2005, supersedes the December 24, 2002, version. Based on
    the Summary of Changes section of the March 3, 2005, version, the requirements in the above referenced
    paragraph were in effect in the December 24, 2002, version as well.

                                                     4

     Component should establish and document an auditable methodology for
     capturing costs.

     Air Force Instruction. Air Force Instruction 65-601 requires the Office of the
     ASAF(FM&C), all major commands’ financial management offices, and all
     installation financial management offices to assign emergency operations codes to
     their accounting classifications to collect costs incurred for emergencies. Further,
     the Instruction requires Air Force comptrollers and budget officers to apply the
     emergency operations codes to all emergency appropriations and applicable
     commitment, obligation, and expenditure documents. The Instruction also
     requires Air Force comptrollers and budget officers to ensure that operating
     personnel are aware of the importance of properly identifying and capturing all
     costs associated with emergency operations for the purpose of reporting accurate
     cost data.

Statistical Sample and Audit Results
     Statistical Sample. To perform the audit, we statistically sampled approximately
     $28 billion in supplemental funds provided to DoD from August 2002 through
     December 2005 for unclassified procurement and research, development, test, and
     evaluation activities to determine whether the DoD Components placed the funds
     on contracts for the purposes stipulated in congressional legislation. The
     Quantitative Methods Directorate within the DoD Office of Inspector General
     designed and selected a random sample of 600 dollar points from the universe of
     supplemental funds provided to DoD. Of the 600 DoD sample dollar points
     selected, 28 dollar points fell within the GWOT appropriations allocated to the
     Air Force. A detailed description of the methodology the audit team used to track
     the dollar points from public law through obligation document can be found in
     Appendix A of this report.

     Audit Results. Of the 28 Air Force sample dollar points reviewed, Air Force
     comptrollers and budget officers did not assign an emergency operations code to
     the accounting classification in contract documents for 11 sample dollar points.
     For 9 of the 11 sample dollar points, Air Force comptrollers and budget officers
     did not separately identify the types of appropriations. Instead, they merged
     GWOT appropriations with annual appropriations in the accounting system.
     Because there was no way to differentiate between annual and supplemental funds
     obligated on contract documents, we were unable to determine whether Air Force
     program offices used the funds for the GWOT purposes authorized by Congress.
     For 2 of the 11 sample dollar points that did not have an emergency operations
     code, the Air Force comptroller combined GWOT appropriations for one
     conference report line item with GWOT appropriations for another conference
     report line item for contract obligation purposes. As a result, we could not
     determine whether the Air Force program offices used the correct GWOT
     appropriations for obligations made for line items in contract documents.




                                          5

Financial Controls Over GWOT 

    The Air Force had policies and procedures requiring the Office of the
    ASAF(FM&C) to assign emergency operations codes to all appropriations to
    identify and capture cost. However, comptroller and budget personnel in the
    Office of the ASAF(FM&C) did not always assign emergency operations codes
    and include implementing instructions in budget authorization/allocation
    documents provided to Air Force major commands. When comptrollers and
    budget officers at the Air Force Materiel Command received budget
    authorization/allocation documents without emergency operations codes and
    instructions, they accepted and forwarded the documents without them. The
    program offices then committed and obligated funds without assigning emergency
    operations codes in the line of accounting. For all 12 Air Force sample points that
    did not have emergency operations codes in the accounting classifications, the
    problem originated at the ASAF(FM&C) level and was not corrected at lower
    levels as the documents were passed on.

Effect of Commingling Annual and Supplemental
  Appropriated Funds
    Because Air Force comptrollers and budget officers did not always assign
    emergency operations codes to accounting classifications in contracts to identify
    the source of the funding and did not separate GWOT appropriations by
    conference report line item, the Office of the ASAF(FM&C) was not able to
    accurately track obligations incurred to support GWOT. Further, because
    comptrollers and budget officers did not put a separate emergency operations code
    on supplemental and bridge funds and did not separate GWOT appropriations by
    conference report line item, the Air Force financial community did not have a
    means to ensure that funds placed on contracts were used for the purposes
    stipulated in the congressional language authorizing supplemental funding in
    support of GWOT. As a result, the Air Force did not have accounting controls to
    accurately report to Congress its progress in obligating those funds.

Actions to Improve Tracking of GWOT Obligations
    After discussion with the audit team, the ASAF(FM&C) issued a memorandum,
    “Global War on Terrorism (GWOT) Cost of War Reporting,” on April 3, 2007.
    The memorandum requires each major command that receives supplemental
    funding to report monthly on GWOT obligations and expenditures at the line-item
    level of detail. The memorandum also reiterates the requirement for Air Force
    comptrollers and budget officers to properly code GWOT funding documentation
    with emergency operations codes in accounting classifications. In addition, the
    memorandum states that Office of the ASAF(FM&C) is in the process of
    developing a separate database for recording monthly GWOT obligations and
    expenditures. The ASAF(FM&C) intends to use the database to produce the
    monthly “Supplemental and Cost of War Execution Report” to Congress. See
    Appendix E for the April 3, 2007, memorandum.

                                         6

Management Comments on the Finding and Audit Response
    ASAF(FM&C) Comments on the Finding. The Principal Deputy Assistant
    Secretary of the Air Force (Financial Management), responding for the Assistant
    Secretary of the Air Force (Financial Management and Comptroller), concurred
    that the auditors could not always determine whether the funds were used for the
    purposes stipulated by Congress. However, he stated that by using the Air Force's
    Availability Report and the Commander’s Resource Integration System, the
    Air Force determined that most of the funds were spent for the purposes stipulated
    by Congress and in support of GWOT. (For the complete text of the Principal
    Deputy’s comments, see the Management Comments section of this report.)

    Audit Response. We considered the Principal Deputy’s comments and reviewed
    the Air Force’s Availability Reports and the Commander’s Resource Integration
    System printouts. The reports did not help us identify the sample dollar point for
    each conference report line item in question, nor did they provide new information
    to demonstrate that the Air Force major commands were assigning emergency
    operations codes to commitment and obligation documents. As a result, we were
    still unable to determine that our sample dollar points were used for the purposes
    stipulated by Congress and in support of GWOT.

    OUSD(C) Comments on the Finding. Although not required to comment, the
    Acting Deputy Chief Financial Officer, responding for the Under Secretary of
    Defense (Comptroller), provided comments. The Acting Deputy stated that our
    reference to the DoD Financial Management Regulation discussed the cost of war
    report requirement, but did not discuss the requirement for coding or the use of
    alternate methodology for accounting for costs. The Acting Deputy also stated
    that our audit report did not fully support statements that appropriations for one
    conference report line item were combined with appropriations for another
    conference report line item when obligating GWOT funds.

    Audit Response. We considered the Acting Deputy’s comments and revised the
    report to include the additional requirements as referenced in the DoD Financial
    Management Regulation. We also added more detail about combining conference
    report line items when obligating funds.

Recommendations, Management Comments, and
  Audit Response
    Revised Recommendation. In his comments on the draft report, the Principal
    Deputy Assistant Secretary of the Air Force (Financial Management), responding
    for Assistant Secretary of the Air Force (Financial Management and Comptroller),
    stated that the Air Force had implemented a strategy to address coding
    inconsistencies. However, we believe that the Air Force needs to exercise
    additional oversight of Air Force comptrollers and budget officers to ensure that
    they are complying with Air Force Instruction 65-601. Therefore, we clarified
    Recommendation 1. to require the enforcement of Air Force policy on the use of

                                        7

emergency operations codes in the accounting classification of commitment and
obligation documents.

We recommend that the Assistant Secretary of the Air Force (Financial
Management and Comptroller):

        1. Enforce procedures requiring Air Force comptrollers and budget
officers to assign emergency operations codes in the accounting
classifications on Global War on Terrorism commitment and obligation
documents in accordance with Air Force Instruction 65-601, “Financial
Management,” March 3, 2005.

        2. Establish procedures requiring Air Force comptrollers and budget
officers to separate Global War on Terrorism appropriations by conference
report line item to ensure that the funds can be tracked through the General
Accounting and Finance System.

ASAF(FM&C) Comments. The Principal Deputy Assistant Secretary of the
Air Force (Financial Management), responding for Assistant Secretary of the
Air Force (Financial Management and Comptroller), did not specifically concur
with the recommendations. He stated that the Air Force identified problems with
the inconsistent application of emergency operations codes for GWOT funds and,
as a result, could not ensure accurate cost of war reporting. The Principal Deputy
stated that the Air Force had implemented a strategy to address coding
inconsistencies. He believed that the strategy, which is outlined in the April 3,
2007, memorandum, “Global War on Terrorism (GWOT) Cost of War
Reporting,” satisfies the recommendations. In addition, he stated that the Air
Force’s effort to improve coding has proven successful and that 99 percent of the
$2.69 billion in FY 2007 GWOT supplemental funding was coded correctly in the
accounting system.

Audit Response. The April 3, 2007, memorandum, “Global War on Terrorism
(GWOT) Cost of War Reporting,” partially met the intent of the first
recommendation. However, we analyzed eight additional transactions from the
FY 2007 GWOT supplemental appropriations that occurred after the
memorandum was issued to determine whether the commitment and obligation
documents contained the proper codes. We determined that all eight commitment
documents we reviewed contained emergency operations codes; however, only
four of the eight obligation documents contained an emergency operations code.
Therefore, the Air Force needs to exercise additional oversight of Air Force
comptrollers and budget officers to ensure that they are complying with Air Force
Instruction 65-601, which requires the application of emergency operations codes
to all applicable commitment and obligation documents. Without exercising this
additional oversight, the Air Force will not be able to accurately report to
Congress its progress in obligating those funds. Accordingly, we revised
Recommendation 1. to clarify that the Air Force policy on the use of emergency
operations codes in the accounting classification applies to commitment and
obligation documents.

The Air Force's issuance of the April 3, 2007, memorandum did not fully address
the intent of the second recommendation. Specifically, the Air Force

                                    8

memorandum only addressed how the Air Force intends to prevent annual funds
from being combined with supplemental funds by issuing separate budget
authorizations. However, the memorandum did not address how the Air Force
would prevent two conference report line items from being combined on the
budget authorization document. For example, during our review, we found two
instances in our sample dollar points where annual and supplemental funds were
issued on separate budget authorizations, but they were not separated by
conference report line item within the budget authorization document. Therefore,
we request that the Assistant Secretary of the Air Force (Financial Management
and Comptroller) provide additional comments on Recommendations 1. and 2. in
response to the final report.




                                    9

Appendix A. Scope and Methodology 

   We conducted this audit from August 2006 through June 2007, in accordance with
   generally accepted government auditing standards. Those standards require that
   we plan and perform the audit to obtain sufficient, appropriate evidence to provide
   a reasonable basis for our findings and conclusions based on our audit objectives.
   Except for the audit scope limitations noted in this appendix, we believe that the
   evidence obtained provides a reasonable basis for our findings and conclusions
   based on our audit objectives.

   Documentation and Information Reviewed. To accomplish the audit
   objectives, we reviewed the following documentation and information dated from
   August 2002 through September 2007:

      •	 procurement and research, development, test, and evaluation supplemental
         and bridge funds in Public Law 107-206, “2002 Supplemental
         Appropriations Act for Further Recovery From and Response to Terrorist
         Attacks on the United States,” August 2, 2002; Public Law 108-11,
         “Emergency Wartime Supplemental Appropriations Act, 2003,” April 16,
         2003; Public Law 108-106, “Emergency Supplemental Appropriations Act
         for Defense and for the Reconstruction of Iraq and Afghanistan, 2004,”
         November 6, 2003; Public Law 108-287, “Department of Defense
         Appropriations Act, 2005,” August 5, 2004; Public Law 109-13,
         “Emergency Supplemental Appropriations Act for Defense, the Global
         War on Terror, and Tsunami Relief, 2005,” May 11, 2005; Public
         Law 109-148, “Department of Defense, Emergency Supplemental
         Appropriations to Address Hurricanes in the Gulf of Mexico, and
         Pandemic Influenza Act, 2006,” December 30, 2005; Public Law 109-289,
         “Department of Defense Appropriations Act 2007,” September 29, 2006;
         Public Law 110-28, “U.S. Troop Readiness, Veterans’ Care, Katrina
         Recovery, and Iraq Accountability Appropriations Act 2007,” May 25,
         2007; and

      •	 procurement and research, development, test, and evaluation supplemental
         and bridge funds in Conference Report 107-593, “Making Supplemental
         Appropriations for Further Recovery From and Response to Terrorist
         Attacks on the United States for the Fiscal Year Ending September 30,
         2002, and for Other Purposes,” July 19, 2002; Conference Report 108-76,
         “Making Emergency Wartime Supplemental Appropriations for the Fiscal
         Year 2003, and for Other Purposes,” April 12, 2003; Conference
         Report 108-337, “Making Emergency Supplemental Appropriations for
         Defense and for the Reconstruction of Iraq and Afghanistan for the Fiscal
         Year Ending September 30, 2004, and for Other Purposes,” October 20,
         2003; Conference Report 108-622, “Making Appropriations for the
         Department of Defense for the Fiscal Year Ending September 30, 2005,
         and for Other Purposes,” July 20, 2004; Conference Report 109-72,
         “Making Emergency Supplemental Appropriations for the Fiscal Year

                                       10 

       Ending September 30, 2005, and for Other Purposes,” May 3, 2005; and
       Conference Report 109-359, “Making Appropriations for the Department
       of Defense for the Fiscal Year Ending September 30, 2006, and for Other
       Purposes,” December 18, 2005; Conference Report 109-676, “Making
       Appropriations for the Department of Defense for the Fiscal Year Ending
       September 30, 2007, and for Other Purposes,” September 26, 2006;
       Conference Report 110-107, “Making Emergency Supplemental
       Appropriations for the Fiscal Year Ending September 30, 2007, and for
       Other Purposes,” April 24, 2007; and

   •	 financial documents relating to GWOT supplemental and bridge funds,
      including investment program/fund approval for direct obligations;
      procurement authorizations; budget authorizations/allocation or operating
      budget authority; budget authorizations/allotment; military
      interdepartmental purchase requests; amendments to military
      interdepartmental purchase requests; purchase requests; amendments to
      purchase requests; and funding document adjustment forms; and

   •	 contractual documents for obligating GWOT supplemental and bridge
      funds, including contract modifications and orders for supplies or services.

Staff Contacted. We also contacted the staffs of the Offices of the U.S. Central
Command; the Under Secretary of Defense (Comptroller); the Assistant Secretary
of the Air Force (Financial Management and Comptroller); Air Force Materiel
Command; the Army TACOM Life Cycle Management Command; the U.S.
Marine Corps Systems Command; the Oklahoma City Air Logistics Center; the
Warner Robins Air Logistics Center; the Air Armament Center; the Aeronautical
Systems Center; the Electronic Systems Center; the Surgeon General of the
Air Force; and the Department of the Interior National Business Center to
determine whether the Air Force was maintaining effective accounting controls
over the use of GWOT supplemental funding provided for procurement and
research, development, test, and evaluation, and whether the funds were placed on
contracts and used for the purposes stipulated in the congressionally approved
supplemental funding for GWOT.

Limitations to Audit Scope. For conducting the statistical sample, we excluded
classified programs and efforts from the universe of GWOT appropriations. We
concluded that the use of the audit results would be limited if we issued a
classified report. The scope of this audit did not include the fund status of GWOT
procurement and research, development, test, and evaluation funds provided to
DoD under Public Law 109-234, “Emergency Supplemental Appropriations Act
for Defense, the Global War on Terror, and Hurricane Recovery, 2006,”
June 15, 2006. The scope of this audit did not include Public Law 109-234
because when we started the audit in August 2006, DoD had obligated less than
35 percent of the procurement and research, development, test, and evaluation
funds. Consequently, the audit results would be distorted if we included this
supplemental fund in our universe of GWOT appropriations.



                                    11 

Use of Technical Assistance. The Quantitative Methods Directorate within the
DoD Office of Inspector General assisted the audit team in conducting a statistical
sample. In addition, the Technical Assessment Directorate assisted the audit team
in determining whether the GWOT supplemental procurement and research,
development, test, and evaluation funds placed on contracts were used for the
purposes stipulated by Congress.

Statistical Sample of GWOT Supplemental Funding. The statisticians in the
Quantitative Methods Directorate designed and selected a statistical sample of
GWOT supplemental funding provided for procurement and research,
development, test, and evaluation activities. They designed the sample to enable
the audit team to make a statistical projection of DoD use of the funds for the
purposes stipulated by Congress. From August 2002 through December 2005,
Congress authorized DoD about $28.7 billion, exclusive of classified programs
and efforts, in supplemental and bridge funding for procurement and research,
development, test, and evaluation activities. The statisticians selected a statistical
sample of 600 dollar points from this universe. At the conclusion of our review of
the 28 Air Force sample dollar points, we decided to use a judgmental sample for
the remainder of the DoD audit based on preliminary results of our review of
other DoD Components instead of continuing with the statistical sample. We
determined that issues the same or similar to those identified in this report were
occurring for dollar points already reviewed in the other DoD Components. See
Appendix F for a detailed discussion of the statistical sampling methodology.

Audit Methodology. The audit team tracked the sample dollar points by first
collecting all of the commitment documents applicable to the line item and
arranging them in date order. If more than one commitment document had the
same date, the audit team arranged the commitment documents in alpha-numeric
order based on the document number. The audit team then used the dollar value
of each commitment document to develop a running total of the dollar committed
to the line item. The running total simply added or subtracted the amount of each
commitment document to the previous. The audit team used the running total as a
means for establishing a continuous dollar range and determining which
commitment document applied to the specific sample dollar point. The audit team
then reviewed the applicable commitment document to determine the status of the
sample dollar point. If the sample dollar point fell on a commitment document
but was not on contract, we considered the funds obligated. If the sample dollar
point was not committed, meaning that the total of continuous range was less than
the sample dollar point, we considered the funds unobligated.

Additional Work Performed. In response to management comments, the audit
team reviewed another eight transactions from eight separate conference report
line items that the audit team judgmentally selected from Public Law 110-28,
“U.S. Troop Readiness, Veterans’ Care, Katrina Recovery, and Iraq
Accountability Appropriations Act 2007,” May 25, 2007. The purpose of our
additional work was to determine whether the Air Force finance officers were
correctly applying emergency operations codes to obligation and commitment
documents and coding the funds appropriately in the accounting system as the Air
Force stated in management comments on the draft audit report. We used the
same audit methodology to review the additional eight transactions as we used
during initial review to track the dollar points from conference reports through

                                     12 

budget authorization documentation. After tracking the funds, we collected and
analyzed Commanders Resources Integration System printouts to ensure that the
funds were coded in the accounting system. We obtained commitment and
corresponding obligation documents for each line item to determine whether Air
Force budget officers appropriately included emergency operations codes in the
accounting classification on commitment and obligation documents supporting
the accounting system.

Use of Computer-Processed Data. We relied on reports generated from the
General and Accounting Finance System and the Commanders Resource
Integration System. Although we did not perform a formal reliability assessment
of the computer-processed data, we determined that using the reports would not
affect the overall DoD statistical projection or the reliability of the audit.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the DoD Financial Management high-risk area.




                                    13 

Appendix B. Prior Coverage

Prior Coverage
      During the last 5 years, the Government Accountability Office (GAO) and the
      Air Force Audit Agency (AFAA) have issued six reports discussing supplemental
      funding authorized and obligated for the Global War on Terrorism. Unrestricted
      GAO reports can be accessed over the Internet at http://www.gao.gov.

GAO

      GAO Report No. GAO-06-885T, “Global War on Terrorism: Observations on
      Funding, Costs, and Future Commitments,” July 18, 2006

      GAO Report No. GAO-05-882, “Global War on Terrorism: DoD Needs to
      Improve the Reliability of Cost Data and Provide Additional Guidance to Control
      Costs,” September 2005

      GAO Report No. GAO-04-915, “Military Operations: Fiscal Year 2004 Costs for
      the Global War on Terrorism Will Exceed Supplemental, Requiring DoD to Shift
      Funds From Other Uses,” July 2004

      GAO Report No. GAO-04-668, “Military Operations: DoD’s Fiscal Year 2003
      Funding and Reported Obligations in Support of the Global War on Terrorism,”
      May 2004

      GAO Report No. GAO-03-346, “Defense Budget: Tracking of Emergency
      Response Funds for the War on Terrorism,” April 2003

AFAA

      AFAA Report No. F2005-0011-FB1000, “Global War on Terrorism Funds
      Management,” June 20, 2005




                                         14 

Appendix C. Glossary
   Accounting Classification Code. An accounting classification code is a series of
   letters and numbers appearing on accounting source documents. The characters
   provide the information necessary to enter transactions into DoD accounting
   systems.

   Bridge Funds. Bridge funds are emergency supplemental funds that are added to
   the regular annual appropriation bill to pay a portion of the incremental funds
   needed for ongoing emergency operations. Generally, bridge funds are in a
   separate title of the appropriation, usually Title IX.

   Budget Authority. Budget authority is enacted through congressional legislation
   and allows DoD to enter into obligations that will result in immediate or future
   outlays. It may be classified by the period of availability, by the timing of
   congressional action, or by the manner of determining the amount available.

   Commitment. A commitment is an administrative reservation of funds by the
   comptroller in anticipation of an obligation.

   Contingency Operation. A contingency operation is a military operation that is
   designated by the Secretary of Defense as an operation in which members of the
   armed forces are or may become involved in military actions, operations, or
   hostilities against an enemy of the United States or against an opposing military
   force. A contingency operation is also considered a call or order to, or retention
   on, active duty of members of the uniformed services during a war or during a
   national emergency declared by the President or Congress.

   Expenditure. An expenditure is a charge against available funds, evidenced by
   voucher, claim, or other document, approved by a competent authority. An
   expenditure represents an actual payment of funds to an entity.

   Obligation. An obligation is a duty to make a future payment of money. The
   duty is incurred as soon as an order is placed or a contract is awarded for the
   delivery of goods and the performance of services. An obligation is a specified
   sum of money that will require expenditures in the future.

   Operation Enduring Freedom. Operation Enduring Freedom is continuing
   United States’ efforts to track down terrorists and provide stability, primarily in
   Afghanistan, but also includes operations in support of the Republic of the
   Philippines. The military objectives of Operation Enduring Freedom include
   denying terrorist organization access to training camps and infrastructure,
   capturing Al Qaeda leaders and fighters, stopping terrorist activities against the
   United States and its allies, and preventing the re-emergence of international
   terrorist organizations. In Afghanistan, the objectives include destroying the
   remaining Taliban and Al Qaeda organization, training the Afghan National
   Army, conducting civil-military operations, and providing support for the
   emerging government of Afghanistan. In Cuba, the United States continues to
                                        15 

hold terrorist detainees at Guantanamo Bay facility in order to obtain tactical
intelligence on current and future terrorists operations, remove Al Qaeda and
Taliban terrorist from the battlefield, and facilitate prosecution of those who have
committed crimes.

Operation Iraqi Freedom. Operation Iraqi Freedom is continuing efforts to
stabilize Iraq, conduct stability and support operations throughout Iraq, capture
Hussein regime loyalists, and stop terrorists from using Iraq as a staging area for
terrorism activities.

Operation Noble Eagle. Operation Noble Eagle is continuing efforts to defend
the United States from airborne attacks and maintaining United States air
sovereignty.

Procurement. Procurement is the act of buying goods and services for the
Government.

Research, Development, Test, and Evaluation. Research, development, test,
and evaluation represents DoD activities and funding used to develop new
systems or expand the performance of fielded systems.

Supplemental Appropriation. Supplemental appropriations are enacted by
Congress as an addition to DoD’s regular annual appropriation. Supplemental
appropriations provide additional budget authority beyond original estimates for
programs or activities that are too urgent to be postponed until the next regular
annual appropriation.




                                     16 

THIS PAGE INTENTIONALLY LEFT BLANK





                17 

Appendix D. 	Apportionment Process for
             Supplemental and Bridge Funds
   The following figure illustrates the OUSD(C) and the ASAF(FM&C)
   apportionment process for GWOT supplemental funds. The chart was compiled
   based on meetings with the OUSD(C) and ASAF(FM&C).

   The apportionment process begins when Congress provides its Conference Report
   to the President for approval. When the President signs the conference report into
   law, DoD is given the authority to distribute the funds. Once OUSD(C) receives
   the Conference Report and the Public Law, it extracts the apportionment values by
   subcategory and issues an apportionment request to the Office of Management
   and Budget. The Office of Management and Budget checks the values, applies
   spending restrictions as necessary, and approves the apportionment request. On
   receipt of the approved apportionment request, the OUSD(C), Investment
   Directorate issues funds to the DoD Components by line item totals, makes sure
   detailed line items reconcile, and as necessary, withholds apportionment until
   congressional requirements are met. The ASAF(FM&C) receives the
   supplemental funds electronically from the Investment Directorate on a Standard
   Form 440 issued through the Program Budget and Accounting System.

   The Office of the Assistant Secretary of the Air Force (Acquisition), upon
   receiving the Standard Form 440 from ASAF(FM&C), puts together a
   procurement authorization that details which major command should receive the
   funds for each line item. From the procurement authorization, ASAF(FM&C)
   creates a budget authorization/allocation document for the major commands. This
   document should assign an emergency operations code and provide implementing
   instructions. The major commands then forward the information in the budget
   authorization/allocation document through the applicable financial office to the
   program offices. Once the budget office for each program office has input the
   financial information into its accounting system, the program office can commit
   and obligate supplemental and bridge funds. Each commitment and obligation
   document should include an emergency operations code designation.




                                      18 

  Apportionment Process for Supplemental and Bridge Funds




   Conference
     Report
                                                                                                                                                                                                                                                                                                     A
                                                                                                                                                                                                                                   Air Force
                                                                                                                                                                          Air Force                                             Comptroller Office                                           Major Commands
                                        Office of the                           Office of                                OUSD                     SF 440
         Public Law                                             SF 132                                 SF 132                                                          Comptroller Office
                                      Under Secretary                          Management                            (Comptroller),                                                                                         Creates BA which actually
                                        of Defense                             and Budget                             Investment                                     Forwards the SF 440 to                                 releases the funds. The BA          Budget
                                                             Apportionment                          Apportionment                                Investment                                                                 is a detailed version of the                                Forwards the BA to the
                                       (Comptroller)                                                                  Directorate                                    the Assistant Secretary                                                                  Authorization
            Signed by the                                      Request        Checks values in        Request                             Program/Fund Approval
                                                                                                                                                                                                                            PA and there may be                                         program executive offices
                                     Extracts                                                                                               for Direct Obligation
                                                                                                                                                                     of the Air Force
           President (gives                                                   SF 132, asks                          Issues funds by                                                                                         multiple BAs for a PA.                                      and program offices.
          the DoD authority          apportionment                                                                                                                   (Acquisition)
                                                             Line item        questions, may                        line item totals,                                                                                       Money may be withheld
             to distribute           values* from the        details of the   add spending                                                 Preparation of SF 440
                                                                                                                    makes sure                                                                                              from release. Assigns
                funds)               Conference Report       Standard Form                                                                allows DoD to distribute
                                                                              restrictions, then                    detailed line items                                                                                     emergency operations
                                     by subcategory          (SF) 440 are                                                                      funds to DoD
                                                                              approves                              reconcile, may             Components                      SF 440          Assistant Secretary of       codes and provides
                                                             being prepared
                                                                              apportionment                         withhold                                                                       the Air Force            implementing instructions.
                                                             at this point
                                                                              request                               apportionment         OSD uses the Program                                     (Acquisition)
                                    *NOTE - The Army,                                                               until                 Budget and Accounting                                                                  Procurement
                                                                                                                                                                                               Puts together the PA
                                    Navy, and Air Force                                                             congressional         System to distribute an                                                                Authorization
                                                                                                                                                                                               (internal document)
                                    each extract their own                                                                                 electronic version of
                                                                                                                    requirement is                                                             which lists the line items
                                    values from the Public                                                                                        SF 440
                                                                                                                    met                                                                        in the SF 440 and which
                                    Law and forward the
                                    amounts to the OUSD                                                                                                                                        major commands
                                    (Comptroller). The                                                                                                                                         receive the funds
                                    OUSD (Comptroller)
                                    then adds the
                                    extracted Defense-
                                    Wide amounts.

                                                                                                                                                                                                                                         KEY
            A
                                                                                                                                                                                                                                                   Office of Management and Budget
   Major Commands                                  Specific Center/
                                                      Financial                                      Program Offices                                                                                                                               Office of the Under Secretary of Defense (Comptroller)
                                Budget
                                                  Management Office
                                                                                Budget             Can see the funds                                                                                                                               Office of the Assistant Secretary of the Air Force
Forwards the BA to the        Authorization      The fund control point       Authorization                                                                                                                                                        (Financial Management and Comptroller)
                                                                                                   have been released in
program executive offices                        of contact identifies
                                                                                                   the accounting system.
and program offices.                             the owner of the funds                                                                                                                                                                            Office of the Assistant Secretary of the Air Force (Acquisition)
                                                                                                   Once the funds are
                                                 and sends the BA to
                                                                                                   visible, the program
                                                 the owner (program                                                                                                                                                                                Major commands
                                                                                                   office can begin
                                                 office).
                                                                                                   committing and                                                                                                                                  Specific Center/Financial Management Office
                                                                                                   obligating the funds.
                                                                                                   Commitment and                                                                                                                                  Program offices
                                                                                                   obligation documents
                                                                                                   should contain                                                                       ACRONYMS                                                   Actions taken by the responsible office
                                                                                                   emergency operations                                                                 BA      Budget Authorization
                                                                                                   codes.                                                                               PA      Procurement Authorization                          Document flow




                                       19
Appendix E. Assistant Secretary of the Air Force
            (Financial Management and
            Comptroller) Memorandum of
            Actions Taken


                                                            DEPARTMENT OF THE AIR FORCE
                                                                                  WASHINGTON DC




   OFFICE O F THE ASSISTANT S E C R E T A R Y




           MEMORANDUM                         FOR ALL MAJCOM/FMs                                                          APR                                        03


                             1130 Air Force          Pentagon 

                          Washington D C 20330-1130 


           SUBJECT:             Global W a r on Terrorism ( G W O T ) Cost of W a r Reporting

                  W e are receiving increased scrutiny o f o u r G W O T execution, both obligations and expenditures.
           C o m m e n t s i n a p r e l i m i n a r y D o D IG r e p o r t h a v e e x p r e s s e d c o n c e r n t h a t " t h e f i n a n c i a l c o n t r o l s a r e n o t
           a d e q u a t e t o s u p p o r t t h e cost o f w a r reports to C o n g r e s s . "          A s a r e s u l t o f the i n c r e a s e d e m p h a s i s o n
           e x e c u t i o n d a t a w e w i l l n e e d y o u r s t a f f t o s u b m i t m o n t h l y r e p o r t s t o S A F / F M B I b y t h e 10th o f e a c h        month
           s t a r t i n g 10 M a y f o r EOM A p r i l .        W e request y o u report m o n t h l y obligations a n d e x p e n d itures for
           procurement (3010              T   3 0 1 1 , 3 0 2 0 , 3 0 8 0 ) a n d research, d e v e l o p m e n t , test a n d evaluation                (3600)
           a p p r o p r i a t i o n s a t t h e P-1 a n d R - 1 l e v e l o f d e t a i l . C u r r e n t l y , m y t e a m i s u s i n g t h e A R ( M ) 1 0 0 2 D F A S
           report to extract the required data based on where the dollars are allocated.                                               This method can not
           guarantee accuracy and cannot be duplicated by external agencies.                                             With the increased focus on the
           o b l i g a t i o n a n d e x p e n d i t u r e o f G W O T f u n d i n g b y C o n g r e s s , y o u n e e d t o b e v i g i l a n t in y o u r e f f o r t s t o
           properly E S P code and report these funds-
                        B e g i n n i n g w i t h t h e F Y 0 7 T i t l e IX a n d F Y 0 7 S u p p l e m e n t a l , y o u w i l l r e c e i v e a s e p a r a t e     Budget
           A u t h o r i t y { B A ) for G W O T f u n d i n g .        Y o u will      be    required     to E S P code every dollar and report your
           obligations and disbursements monthly on the attached spreadsheet.                                               W e a r e in t h e p r o c e s s o f d e v e l o p i n g
           a w e b - b a s e d d a t a b a s e that will a l l o w y o u to input t h e data directly into t h e s y s t e m .                     T h e objective of the
           new      report    is to i m p r o v e t h e credibility, accuracy, a n d t r a n s p a r e n c y o f t h e data w e are s u b m i t t i n g t o
           O S D , w h o in t u r n is s u b m i t t i n g t h e r e p o r t t o C o n g r e s s ,


                        1 thank y o u t o r your tireless w o r k a n d support!                        T h e S A F / F M B I p o i n t o f c o n t a c t for t h e G W O T
           I n v e s t m e n t r e p o r t is M s . P a t r i c e D i x o n , D S N 2 2 4 - 4 6 0 4 .




                                                                                                         RICHARD           W.     LOMBARDI
                                                                                                         Director, Budget            Investment
                                                                                                         Deputy Assistant Secretary                   (Budget)

           Attachments:

           1 .	   Principle Deputy U S D ( C )                Memo
           2 .	   Report Template

           cc:	    SAF/FMB            

                  ALC/FMs

                  Product       Center/FMs 

                  SAF/AQX

                                                                                 Financing        the Fight




                                                                                          21
Appendix F. Statistical Sampling Methodology
   Sampling Objectives. The purpose of the statistical sampling was to select
   commitment and obligation transactions incurred from the population of the
   Global War on Terrorism (GWOT) supplemental appropriations to determine
   whether those transactions were made in support of GWOT and whether the funds
   associated with those transactions were spent as stipulated in the congressionally
   approved supplemental and bridge appropriations.

   Population. The population of the sample consisted of six GWOT supplementals
   that Congress appropriated from August 2002 through December 2005. Public
   Law 107-206, Public Law 108-11, Public Law 108-106, Public Law 108-287,
   Public Law 109-13, and Public Law 109-148 enacted the six supplementals. The
   population totaled $28,685,407,000, after the audit team excluded funding for
   classified programs and efforts.

   Sample Design. For this sample, each population unit was a dollar point between
   1 and 28,685,407,000. The sample design used a sampling technique in which
   each population unit (dollar point) had a probability of being selected that was
   proportional to its recorded amount, which was the total amount of the conference
   report line item it fell on. The advantage to using that sampling technique was
   that the larger recorded amounts had a higher probability of being selected than
   units with smaller recorded amounts. For example, a conference report line item
   totaling $450 million would have a higher probability of having a population unit
   (dollar point) selected than a conference report line item totaling $20 million
   would. The sample design called for using 95 percent confidence level for
   statistical projection.

           Sample Size. To determine which population unit to sample, statisticians
   from the Quantitative Methods Directorate aggregated the dollar values for the
   supplemental appropriations by location, arranged them in descending order, and
   computed a running sum of the dollar values for the supplemental appropriations.
   The statisticians randomly generated 600 numbers without replacement between
   1 and 28,685,407,000 and correlated each random number to the corresponding
   dollar point for the running sum of the dollar values. They then determined which
   location corresponded to each of the 600 resulting dollar points. The distribution
   of the 600 dollar points was 361 for the Army, 156 for the Navy and Marine
   Corps, 28 for the Air Force, and 55 for the National Guard and Defense agencies.

          Sample Result Categories. We anticipated issuing a summary report that
   projected the sample results across DoD in three main categories. Specifically,
   we will determine whether DoD committed or obligated the funds:

          •	 in support of GWOT;
          •	 as stipulated in the congressionally approved supplementals and
             bridges; or



                                       22 

       •	 for indeterminable purposes, such as commingled with annual
          appropriations, commingled with other conference report line-items, or
          because of insufficient audit documentation.

Change in Sample Methodology. At the completion of our review of Air Force
transactions, we decided to use a judgmental sample instead of continuing with a
statistical sample to complete the overall DoD audit. We decided to conduct a
judgmental sample because we determined that the same issues associated with
the Air Force would probably occur for the remaining dollar points based on
preliminary results of our review of transactions at the other DoD Components.




                                   23 

Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)

Assistant Secretary of the Air Force (Financial Management and Comptroller) 

Auditor General, Department of the Air Force 


Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations


                                          24 

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      25 

Under Secretary of Defense (Comptroller)
Comments
                                                                                                                    Final Report
                                                                                                                     Reference



                          OFFICE O F THE UNDER SECRETARY OF DEFENSE                                  JUL 31 2007
                                            1100 D E F E N S E PENTAGON
                                           WASHINGTON. D C       20301-1100




   COMPTROLLER


        M E M O R A N D U M FOR P R O G R A M D I R E C T O R . D E F E N S E F I N A N C I A L A U D I T I N G 

                                    SERVICE, O F F I C E O F I N S P E C T O R G E N E R A L , 

                                    DEPARTMENT O F DEFENSE 


        S U B J E C T : Draft Report entitled " A i r Force Use of Global War on Terrorism 

                        Supplemental Funding Provided for Procurement and Research, 

                        Development, Test and Evaluation," (Project No. D 2 0 0 6 ­
                        D000AE-0241.000) 


               Although the subject audit does not direct any recommendations to the Under 

        Secretary of Defense (Comptroller), w e have taken the opportunity to review the draft 

        report and provide comments. 


                W e generally agree with report Recommendation 1 concerning coding. Coding 

        criteria is appropriate for recording Global War on Terror Procurement and Research, 

        Development, Testing & Evaluation costs when funds are issued for clearly 

        identifiable budget line items because the accounting systems are designed to account 

        for costs by these line items; however, there are G W O T costs that are not readily 

        available in the accounting systems and coding is not feasible, such as flying hours. 

        Based on the Department of Defense Financial Management Regulation " D o D F M R " , 

        Volume 12, Chapter 2 3 , "Contingency Operations," C o m p o n e n t s arc authorized to use 

        an alternate methodology to derive costs that are not readily available in the accounting 

        system. 


                 T h e following additional comments are provided Tor your consideration.

               Page 4. "Emergency and Special Program Code Guidance." T h e reference for the                       Revised
       " D o D Financial Management Regulation" discusses the requirement for the
       "Supplemental and Cost of War Execution Report"; but does not identify the DoDFMR
       requirement to use a coding criteria or an alternate methodology, which is outlined in
       Volume 12, Chapter 23, "Contingency Operations."

                Page 6. "Impact of Commingling Annual and Supplemental Appropriated Funds."
                                                                                                                    Revised
       This section reports that the Air Force "did not separate G W O T appropriations by
       conference report line items." Although there is a recommendation to correct the issue, 

                                                                                                                    Page 5
       this is the only section where commingled conference report line items are mentioned and 

       the audit results d o not clearly support this finding. Recommend additional information 

       he included to support this finding or the finding be removed. 





                                                    27 

       The Department appreciates the opportunity to comment on the subject report.
My staff point of contact on this matter is M s . Joy Marcou. She can be contacted by
telephone at 703-697-3135 or e-mail atjoy.marcou@osd.mil.




                                                Robert P. McNamara
                                                Acting Deputy Chief Financial Officer




                                      28
Department of the Air Force Comments
                                                                                                                                                                                               Final Report
                                                                                                                                                                                                Reference



                                                                 DEPARTMENT OF THE AIR FORCE
                                                                                        W A S H I N G T O N , DC




  O F F I C E OF T H E A S S I S T A N T S E C R E T A R Y                                                                                              AUG 0 1 2007

             MEMORANDUM                       FOR DEPUTY       I N S P E C T O R G E N E R A L F O R AUDITING
                                                       OFFICE OF THE INSPECTOR GENERAL
                                                       DEPARTMENT OF DEFENSE


             FROM:          SAF/FM


             SUBJECT:            A i r F o r c e U s e o f G l o b a l W a r o n T e r r o r i s m S u p p l e m e n t a l F u n d i n g P r o v i d e d for P r o c u r e m e n t
                                   and Research, D e v e l o p m e n t , Test, and Evaluation. 2 9 Jun 0 7 ( D 2 0 0 6 A B - 0 2 4 1 )


                         T h i s i s in r e p l y t o y o u r m e m o r a n d u m r e q u e s t i n g t h e A s s i s t a n t S e c r e t a r y o f t h e A i r F o r c e
             (Financial M a n a g e m e n t and C o m p t r o l l e r ) to provide Air Force c o m m e n t s on subject report.


                          O n 12 M a r 0 7 . d u r i n g t h e i n i t i a l m e e t i n g w i t h t h e a u d i t o r s , t h e A i r F o r c e s e l f - i d e n t i f i e d   issues
             with inconsistent E S P coding of G W O T R e q u i r e m e n t .                                 W i t h o u t p r o p e r u s e o f E S P c o d e s , the A i r F o r c e
                                                                                                                                                                                               Revised
             was unable to guarantee the                     accuracy         of the G W O T Cost of W a r report                        T h e A i r F o r c e t h e n p r e s e n t e d its
             g e t - w e l l p l a n s c h e d u l e d for i m p l e m e n t a t i o n in A p r 0 7 . R e c o m m e n d a t i o n #1 w a s s a t i s f i e d b y t h e 3 A p r 0 7
             m e m o . Subject:          Global W a r on Terrorism                     (GWOT) C o s t            o f W a r R e p o r t i n g , sent to all t h e Major
             C o m m a n d s . C o m p l i a n c e with this g u i d a n c e m e e t s r e c o m m e n d a t i o n # 2 .


                           W e c o n c u r , with c o m m e n t , with the finding that " w e w e r e u n a b l e to d e t e r m i n e whether Air Force
             p r o g r a m offices used t h e funds for t h e G W O T p u r p o s e s a u t h o r i z e d b y C o n g r e s s . "                          The     auditors were
             u n a b l e t o verify' G W O T o b l i g a t i o n s u s i n g t y p i c a l m e t h o d s . H o w e v e r , w e w e r e a b l e t o t r a c k t h e m a j o r i t y
             o f t h e f u n d i n g u s i n g t h e A i r F o r c e ' s A v a i l a b i l i t y R e p o r t a n d t h e o b l i g a t i o n s in C o m m a n d e r ' s R e s o u r c e
             Integration S y s t e m ( C R I S ) .


                           W e d o n o t c o n c u r w i t h t h e f i n d i n g o n p a g e 3 : p a r a g r a p h 1 s t a t i n g t h a t 1 o f the s a m p l e d o l l a r                   Revised
             p o i n t s w a s not s p e n t for t h e effort stipulated by C o n g r e s s .                       O n 2 6 Jul 2 0 0 7 , w e m e t with the audit team
             and provided additional classified information.                                    Upon review o f this additional information, everyone
             a g r e e d t h a t t h e f u n d i n g w a s u s e d in l i n e w i t h t h e c o n g r e s s i o n a l i n t e n t it w a s p r o v i d e d for.

                            T h e finding that the A i r F o r c e 'did not separate G W O T a p p r o p r i a t i o n s by c o n f e r e n c e report line
              i t e m " h a s b e e n s u p e r s e d e d d u e t o the G W O T r e q u e s t s n o w b e i n g s u b m i t t e d w i t h b u d g e t - l e v e l d e t a i l .

                            T h e A i r F o r c e ' s g e t - w e l l p l a n is p r o g r e s s i n g s u c c e s s f u l l y .   Of   the    $2.69B      in F Y 0 7 G W O T
             S u p p l e m e n t a l f u n d i n g , 9 9 % o f t h e d o l l a r s a r e E S P c o d e d c o r r e c t l y in t h e a c c o u n t i n g s y s t e m .

                            I f y o u h a v e a n y q u e s t i o n s o n t h i s i s s u e , m y P O C s a r e Lt C o l J o e l S p e i g h t . D S N 2 2 4 - 4 6 4 2 .
              joel.speight@pentagon.af.mil                       and Ms. Patrice Dixon, D S N 224-4604. patrice.dixon@pentagon.af.mil




                                                                                                     JohnG.VonglisP r i n c i p a lD e p u t y A s s i s t a n t S e c r e t a r y
                                                                                                       o f the Air Force (Financial M a n a g e m e n t )




                                                                                           Financing the Fight




                                                                                          29
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
John E. Meling
Lisa M. Such
Jack D. Snider
Kevin W. Klein
Joyce Tseng
Deborah J. Thomas
Julie B. Burka
Elizabeth A. Powner
Jennifer A. Kura
Maureen M. Keleghan
Zelideth Rodriguez-Velazquez
Charles Dekle
Dharam V. Jain
James Hartman
Jillisa H. Milner
